Recard Press Inc., 228 West 36th Street, New Yark, N.V.10018•
Tel: (212) 618-4848• Fax Na. (212) 608-3141

STATE OF NEW YORK.
SS:

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 5th day of February 2021 deponent served 3 copies of the within
BRIEF FDR THE NEW YORK CITY BAR ASSDCIATDN
AS AMICUS CURIAE SUPPORTING PETITIONER
upon the attorneys at the addresses below. and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
James R. Nuttal
Steptoe HJohnson LLP
115 South LaSalle Street
Chicago, Illinois 60603
(312) 577-1250

John M. Huget
Honigman, LLP
315 E. Eisenhower Parkway, Suite
Ann Arbor. Michigan
(734) 418-4254

Attorneys for Petitioner

Attorneys for Respondents

I. Howard Daniels. declare under penalty

perjury under the laws of the United States of America that the foregoing is true and
correct, executed an February 5, 2021, pursuant to Supreme Court Rule 28.5(c). All parties required to be served, have been
served.
Howard Daniels
Sworn to me this

February 5. 2021
Jasmine Williams
Notary Public. State of New Yark
Na. DIWl6387848
llualified in llueens County
Commission Expires September 16. 2023

Notary Public

Case Name: American Axle HManufacturing, Inc. v. Neapco

Holdings LLC
Docket/Case No. 20-881

